     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




  The Tojg Bridge Construction Is Nearly Complete, but
     Several Contract Issues Need to Be Addressed




                                    March 1, 2010


SIGAR Audit-10-7 Contract Performance and Oversight
   OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



March 1, 2010

General David Petraeus, USA
Commander, U.S. Central Command

General Stanley A. McChrystal
Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General David Rodriguez
Commander, International Security Assistance Force Joint Command

This report discusses the results of our audit of the Farah Provincial Reconstruction Team’s
$1.745 million contract to construct a bridge across the Farah River. It includes four
recommendations to help ensure U.S. resources are appropriately accounted for and that the
bridge is safe and usable when completed.

A summary of our report is on page ii. This performance audit was conducted under the authority
of Public Law No. 110-181 and the Inspector General Act of 1978, as amended. When preparing
the final report, we considered comments on a draft of this report from U.S. Forces-Afghanistan
(USFOR-A). In its comments, USFOR-A partially concurred with three of the recommendations and
concurred with the fourth. However, USFOR-A indicated that the Farah PRT has taken or is taking
steps that substantially address our recommendations. The comments are reproduced in appendix
II of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
 for Afghanistan Reconstruction




SIGAR Audit-10-7 Contract Performance and Oversight                                        Page i
                                                                   SIGAR Audit-10-7                                    March 2010


                   SIGAR
                                                Special inspector General for Afghanistan Reconstruction
                                                                   The Tojg Bridge Construction Is Nearly Complete,
               .
                                                                   but Several Contract Issues Need to Be Addressed
   Special Inspector General for Afghanistan Reconstruction


 What SIGAR Reviewed
 Provisional Reconstruction Teams (PRTs) are a key tool in helping Afghanistan become a self-sustaining, moderate state. To enable PRT
 commanders to respond to urgent humanitarian relief and reconstruction requirements, PRTs may use Commander’s Emergency
 Response Program (CERP) funding. This report focuses on the efforts of the U.S.–led Farah PRT to construct a 300-meter bridge across
 the Farah River near Tojg village in Farah Province using CERP funding. A firm, fixed-priced, $1.745 million construction contract was
 awarded in September 2007. In August 2008, the follow-on PRT Commander questioned the usefulness of the bridge and
 recommended that the project be cancelled; however, after an investigation, the PRT’s command authority directed that the project
 continue. In this light, SIGAR examined the status of the bridge construction, focusing on several contract issues. SIGAR also examined
 PRT plans for turning the bridge over to the Afghan government. SIGAR reviewed available contract files, interviewed Farah PRT and
 other U.S. officials, and conducted an on-site inspection in June 2009. Since the inspection, SIGAR has corresponded with the current
 Farah PRT Commander to update information. SIGAR performed this performance audit in Afghanistan, from May 2009 to February
 2010, in accordance with generally accepted government auditing standards.

 What SIGAR Found
 In December 2009, the Farah PRT estimated that the Tojg Bridge was 80 percent complete. However, due to work site flooding, the
 bridge completion date has been delayed to September 2010, with the PRT approving two 6-month extensions with no change in
 contract price. The PRT did not address the contractor’s spring 2009 request for an extension until SIGAR asked about it in December
 2009. In addition, the Farah PRT had not developed a plan for turning over the bridge and an associated gravel plant worth at least
 $300,000 to the appropriate Afghan ministry. Moreover, during SIGAR’s June 2009 site inspection, a SIGAR engineer raised several
 issues regarding the safety and usability of the bridge. Specifically, concrete testing and other quality control measures were
 inadequate to ensure the structural integrity of the bridge and land ownership rights of the bridge approaches were not documented.
 According to the Farah PRT’s current Commander in December 2009, these issues are being addressed, but, in some instances, SIGAR
 was unable to review documentation to support the Commander’s assertions. For example, as of the date of this report, the PRT had
 not provided SIGAR a signed modification to the contract for the second extension or documents showing clear land ownership rights.
 SIGAR concluded in a September 2009 report on CERP monitoring (SIGAR-09-5) that incomplete files hampered adequate monitoring
 and management of CERP projects. Incomplete contract files have also contributed to the challenges the Farah PRT is currently
 addressing in executing this contract.

 Finally, sustainment of the bridge by the Afghan government remains a concern. Until after our visit in June 2009, the PRT had not
 involved the appropriate Afghan ministry in the construction of the bridge, although applicable guidance encourages PRTs to do so. In
 December 2009, the PRT Commander told SIGAR that although the Farah District Public Works Department was struggling to provide
 engineering support due to a lack of funding, equipment, and personnel, it had been present on every PRT site visit to the Tojg Bridge
 since October 2009.

 What SIGAR Recommends
 To help ensure both effective accounting of U.S. resources and the safety and usability of the Tojg Bridge when it is completed in
 September 2010, SIGAR recommends that the Commander, U.S. Forces-Afghanistan (USFOR-A) and International Security Assistance
 Force, direct the Farah PRT to implement the following four recommendations:
 1) Establish accountability for the gravel plant and associated equipment to ensure the sustainability of the plant.
 2) Ensure that necessary quality control and quality assurance procedures are performed and adequately documented.
 3) Ensure that the land rights associated with the bridge approaches are documented and transferred to the Afghan government.
 4) Address the deficiencies in the contract files per applicable guidance.
 In commenting on a draft of this report, USFOR-A partially concurred with recommendations one, two, and four, and concurred with
 recommendation three. Nevertheless, based on the actions the Farah PRT has taken or plans to take in response to our findings, our
 recommendations are being addressed.
       Tojg Bridge, January 2010
               `



                                                                             i
     Source: Farah PRT, Jan. 2010.


SIGAR Audit-10-7 Contract Performance and Oversight                                                                  Page ii
TABLE OF CONTENTS




Background                                                                                  1

Several Contract Issues Need to Be Addressed                                                4

Sustainability Remains a Concern                                                         11

Conclusion                                                                               11

Recommendations                                                                          12

Comments                                                                                 12

Appendix I: Scope and Methodology                                                        14

Appendix II: Comments from U.S. Forces-Afghanistan                                       15



FIGURES AND PHOTOS
Figure 1: International Security Assistant Force Regional Commands in Afghanistan       2
Figure 2: Key Events Related to the Tojg Bridge Construction Contract                   4

Photo 1: Tojg Bridge Project Site, as of May 27, 2009                                   4
Photo 2: First Reinforced Concrete Arch in Place                                        5
Photo 3: Concrete Arches in Fabrication Pit                                             6
Photo 4: Tojg Bridge Construction, as of January 2010                                   6
Photo 5: Gravel Plant Associated with the Tojg Bridge Contract                          7
Photo 6: Reinforcement Bar Cage for a Concrete Arch in a Fabrication Pit                8
Photo 7: Connection of a Concrete Arch to its Pier                                      9

ABBREVIATIONS

CERP                   Commander’s Emergency Response Program
GIRoA                  Government of the Islamic Republic of Afghanistan
PRT                    Provincial Reconstruction Team
SIGAR                  Special Inspector General for Afghanistan Reconstruction
USFOR-A                U.S. Forces-Afghanistan
USNCE                  U.S. National Command Element, Kandahar Airfield




SIGAR Audit-10-7 Contract Performance and Oversight                                 Page iii
    The Tojg Bridge Construction Is Nearly Complete, but Several Contract Issues
                               Need to Be Addressed
Provisional Reconstruction Teams (PRTs) are a key tool in helping Afghanistan become a self-sustaining,
moderate state. As joint civil-military organizations operating under the leadership of the Commander,
U.S. Forces–Afghanistan (USFOR-A) and International Security Assistance Force, U.S. PRTs assist the
Government of the Islamic Republic of Afghanistan (GIRoA) to increase its capacity to govern by
encouraging good governance and enabling reconstruction and development. To help achieve these
missions, PRTs coordinate reconstruction activities with the provincial government. To enable U.S.-led
PRT commanders to respond to urgent humanitarian relief and reconstruction requirements, PRTs may
use Commander’s Emergency Response Program (CERP) funding from the Department of Defense.

This report focuses on the U.S.-led Farah PRT’s efforts to construct a $1.745 million bridge near the Tojg
Village in Afghanistan’s Farah Province using CERP funding. 1 We examined the status of the
construction, particularly whether the Farah PRT had addressed outstanding contract issues—some
affecting the bridge’s safety and usability. We also examined the PRT’s plans for turning the bridge and
related facilities over to the appropriate Afghan government authorities.

We conducted an on-site inspection of the Tojg Bridge in June 2009, reviewed available contract files
provided by the Farah PRT, and interviewed various stakeholders, including Farah PRT personnel and
others overseeing the Tojg Bridge construction, and Farah provincial officials. Since our site inspection,
we have corresponded with the current Farah PRT Commander. 2 We performed our work from May
2009 through February 2010, in accordance with generally accepted government auditing standards.
More details of our scope and methodology are provided in appendix I.

BACKGROUND

In September 2007, the Farah PRT awarded a $1.745 million, CERP-funded, firm fixed-price contract 3 to
build a 300-meter bridge across the Farah River near the Tojg Village, about 45 kilometers southwest of
Farah City. This contract was awarded to an Afghanistan company formed from several firms (referred
to as the Joint Venture) in Farah Province. According to project documentation, the bridge was to be
completed within 720 days after receiving a Notice to Proceed, or by September 20, 2009. To provide


1
 The Farah PRT includes about 100 military service members and representatives from the Departments of
Agriculture and State and the U.S. Agency for International Development.
2
 At the Farah PRT, the military command and military members have rotated three times since the initiation of the
Tojg Bridge construction contract.
3
 The contract was awarded by the Farah PRT’s Project Purchasing Officer, who is responsible for the procurement
and contract administration of the Tojg Bridge contract.
SIGAR Audit-10-7 Contract Performance and Oversight
the large quantity of properly sized gravel, the Joint Venture developed a rock quarry and gravel plant.
The plant consisted of a rock crusher, conveyors, and material handling capability and was situated near
the Farah PRT.

A useable bridge had not been in the area for more than 100 years. For much of the year, the river’s
water flow allows people to safely cross. However, during the rainy season the water level rises up to
6 feet, creating a hazard. The PRT reported that eight to ten persons are killed each year attempting to
cross when water levels are high. According to project documentation, in addition to providing safe
passage across the Farah River, the Tojg Bridge will link other Farah districts to Farah City, the capital
(see fig. 1). By reducing travel time to Farah City, the Tojg Bridge would enhance (1) economic activity,
(2) security responsiveness for the Afghan National Army and National Police, and (3) access to
government services such as medical facilities and schools. The bridge was heavily supported by the
local Shura leader and provincial government. In a meeting with SIGAR representatives, the current
provincial governor also strongly supported the project.

Figure 1: International Security Assistance Force Regional Commands in Afghanistan




Sources: NATO, “ISAF and Afghan National Army Strength & Laydown,”
www.nato.int/isaf/docu/epub/pdf/placemat.pdf, accessed Sept. 30, 2009. The location of the bridge site is
representational and not meant to be geographically precise.

Note: RC stands for Regional Command, which are geographic regions defined by the International Security
Assistance Force. Farah Province is within the ISAF Regional Command-West area of responsibility. The Farah PRT
operates from a compound on the outskirts of Farah City.

SIGAR Audit-10-7 Contract Performance and Oversight                                                 Page 2
In March 2008, the military members of the PRT rotated. Despite the asserted benefits of the Tojg
Bridge, the next Farah PRT Civil Affairs Officer and PRT Commander questioned whether to proceed with
the Tojg Bridge construction due to concerns about the usefulness of the bridge. For example,

•   In April 2008, the Farah PRT’s Civil Affairs Officer questioned the benefits of the Tojg Bridge project
    in a Memorandum for the Record. He stated that the project was a poor use of resources and
    would not achieve the benefits intended. The Civil Affairs Officer recommended that the bridge be
    constructed at a different site.

•   In August 2008, the Farah PRT Commander wrote a Memorandum for the Record that said the
    project had been mishandled from the start and that the bridge would have minimal, if any, positive
    effects for the GIRoA. The Commander questioned the decision to make large contract payments to
    finance the construction of a private gravel plant. The PRT Commander pointed out that, as of July
    2008, the PRT estimated that the bridge was only 1 percent complete even though the Joint Venture
    had been paid more than $576,000 or 33 percent of the total contract value. 4 The Commander
    recommended that the Tojg Bridge contract be terminated.

In light of these concerns, the Commander of U.S. National Command Element (USNCE) at Kandahar
Airfield ordered an investigation. 5 On November 24, 2008, the USNCE Commander directed that the
Tojg Bridge construction project continue with enhanced PRT oversight after reviewing the results of the
investigation and additional documentation provided by the PRT, and conducting discussions with the
parties involved, including the PRT Commanders. In his Memorandum for File, the USNCE Commander
noted that early documentation on the Tojg Bridge project was lacking. However, he determined that
“significant PRT-initiated control measures can alleviate these missteps” and that the gravel plant was
an implied part of the bridge project. The USNCE Commander added that upon completion of the Tojg
Bridge both the bridge and the gravel plant should be turned over to the appropriate GIRoA authority.
See photo 1 for the layout of the Tojg Bridge project site.




4
 This large disparity was primarily due to the previous PRT Commander’s decision to finance construction and
operation of the gravel plant using contract payments.
5
 Oversight of the Farah PRT CERP projects was the responsibility of USNCE at Kandahar Airfield near Kandahar City
about 430 kilometers east of the Farah PRT.
SIGAR Audit-10-7 Contract Performance and Oversight                                                 Page 3
Photo 1: Tojg Bridge Project Site, as of May 27, 2009

                                                                          Arch fabrication and lay-
                                                                          down area




   Hwy 118 to
   Farah City



                                            First installed arch

                                        Pier foundations under construction

Source: U.S. Army Corp of Engineers, Afghanistan Engineer District.

SEVERAL CONTRACT ISSUES NEED TO BE ADDRESSED

In December 2009, the Farah PRT estimated that the Tojg Bridge was 80 percent complete. Due to work
site flooding, the completion date has been extended to September 2010—about 1 year later than
originally planned—with the PRT approving two 6-month, no-cost extensions to the original contract
completion period. However, the PRT did not address the Joint Venture’s spring 2009 request for an
extension until we raised the issue in December 2009. In addition, the PRT had not completed a plan for
turning over the bridge and gravel plant to the GIRoA. See figure 2 for a timeline.

Figure 2: Key Events Related to the Tojg Bridge Construction Contract
                                                                                                              Contract
                                                                                                              Payments

                                        PRT Commander                                    Projected Contract        $1,000K
                                         Recommended                                        Completion
       Contract Award                  Contract Termination                                     Date
                                                                                                                   $750K
                                                 USNCE Directed PRT
                                                   to Proceed with
                                                  Contract Execution                                               $500K
                                                                             Original Contract
                                                                             Completion Date
                                                                                                                   $250K




 Sep-07    Dec-07   Mar-08    Jun-08    Oct-08    Jan-09   Apr-09   Aug-09   Nov-09    Feb-10    May-10   Sep-10
                               Gravel Plant                         SIGAR Inspection
                             Operations Began
          PRT Rotation          PRT Rotation           PRT Rotation



Source: SIGAR analysis of Farah PRT data.

SIGAR Audit-10-7 Contract Performance and Oversight                                                       Page 4
Moreover, during our June 2009 site inspection, a SIGAR engineer raised several matters regarding the
safety and usability of the bridge that remained to be addressed. In particular,

•   Concrete strength testing procedures and other quality control measures were inadequate to
    ensure the long-term structural integrity of the bridge.

•   Ownership rights of the land leading to the bridge were not clearly established.

In corresponding with the Farah PRT’s current Commander in November and December 2009, we found
that these matters are being addressed. However, in some instances, the contact files were incomplete,
and we were not able to obtain documentation to support the PRT Commander’s assertions. For
instance, quality assurance files for documenting material testing were incomplete. These issues need
to be addressed before the Tojg Bridge construction is completed.

Consideration of the Joint Venture’s Requests for Extension of Completion Date Was Delayed

As indicated in the Farah PRT Commander’s August 2008 memorandum and other documentation, the
Joint Venture had not planned for seasonal flooding in its contract bid and timeline for completion. In
the spring of 2008, floods affected the work site. After the USNCE Commander directed that the Tojg
Bridge contract be continued, the Farah PRT Project Purchasing Officer approved a 6-month, no-cost
extension on February 11, 2009. This moved the contract completion date to March 13, 2010.
However, the worksite was affected again by flooding in the spring of 2009 (see photos 2 and 3).

Photo 2: First Reinforced Concrete Arch in Place




Source: SIGAR, June 11, 2009.

Note: Debris from flooding remains on the reinforcement bars and on top of the pier.




SIGAR Audit-10-7 Contract Performance and Oversight                                          Page 5
Photo 3: Concrete Arches in a Fabrication Pit




Source: SIGAR, June 11, 2009.

Note: Three concrete arches are in a pit used to fabricate the arches. Silt from the spring 2009 flooding has filled
at least a third of the pit.

In spring 2009, the Joint Venture requested a second extension to the contract completion period.
However, the PRT had not addressed the Joint Venture’s request at the time of our site inspection in
June 2009. Thus, the PRT lost an opportunity to influence the efforts of the Joint Venture. After we
raised concerns about the PRT’s delay in June 2009 and again in December 2009, PRT officials informed
us that they were addressing the Joint Venture’s request. A no-cost extension is under review by the
Kandahar Airfield Legal Department. In December 2009, the PRT estimated that the bridge construction
was 80 percent complete with substantial progress being made (see photo 4).

Photo 4: Tojg Bridge Construction, as of January 2010




Source: Courtesy of the Farah PRT.

SIGAR Audit-10-7 Contract Performance and Oversight                                                     Page 6
Ownership and Use of the Gravel Plant Remained Unclear Until February 2010

In his November 2008 Memorandum for File, the USNCE Commander determined that the gravel plant
(see photo 5) was an implied part of the bridge project and should be turned over to the appropriate
GIRoA authority. During our site inspection in June 2009, however, we raised concerns over the PRT’s
lack of progress in documenting the equipment and facilities that comprise the gravel plant and the lack
of involvement by the GIRoA.

Photo 5: Gravel Plant Associated with the Tojg Bridge Contract




Source: SIGAR, June 12, 2009.

At the time of our site inspection and in the months afterwards, the PRT did not develop a
comprehensive list of assets necessary to sustain gravel plant operations. Based on contract
documentation, we found that the Joint Venture defined the gravel plant’s equipment and facility
requirements after contract award by requesting a $300,000 payment for a list of equipment to be
purchased. The PRT made the payment in November 2007. After several discussions, in January 2010,
the current PRT reiterated its position that this equipment will be turned over to the GIRoA.

The plant began operations in May 2008 and has been supplying gravel to numerous projects around
the province as well as for the bridge construction. In July 2008, the PRT determined that the Joint
Venture had earned at least $380,000 for gravel delivered to other projects. In addition, in December
2009, the Farah PRT indicated that the GIRoA Ministry of Public Works had become involved. However,
the PRT had not developed a plan for training personnel to operate and maintain the plant or for turning
over plant operations. The PRT needs to facilitate a smooth turnover to avoid an interruption in
production because the gravel plant is already contributing to the economic activity of the province.

In commenting on a draft of this report, USFOR-A disagreed with the USNCE Commander’s November
2008 determination that the gravel plant was an implied part of the contract and should be turned over

SIGAR Audit-10-7 Contract Performance and Oversight                                          Page 7
to the appropriate GIRoA authority. USFOR-A noted that the gravel plant and related equipment were
not referenced in the Tojg Bridge construction contract. Further, according to USFOR-A, in February
2010, the Farah PRT, the appropriate GIRoA ministries, and the Joint Venture agreed that the Joint
Venture will retain full rights to the gravel plant.

Material Testing of Structural Components Was Not Documented

During our site inspection, discussions with the Joint Venture’s Concrete Superintendent and PRT
personnel revealed that proper material testing was not occurring. For example, the superintendent
stated that to test the concrete placed in the arches (see photo 3), they took test cylinders to a nearby
village and used a press to put weight on them. Since the cylinders did not break, he concluded that
they were strong enough. This testing method will not accurately estimate the strength of the concrete
placed in various sections of the bridge. The design requires that pressure be applied until the test
cylinder breaks. The value of the force at that point is used to estimate the concrete strength.

We also noted that weekly engineer reports required by the contract were not being provided. Such
contractor quality control reports should include documentation such as material test results, the
quality of stone, and verification that concrete reinforcement bars are properly positioned prior to
concrete placements (see photo 6).

Photo 6: Reinforcement Bar Cage for a Concrete Arch in a Fabrication Pit




Source: SIGAR, June 11, 2009.

We found no indications that the welds connecting the concrete arches to the pier foundations would
be completed by qualified welders or tested (see photo 7).




SIGAR Audit-10-7 Contract Performance and Oversight                                           Page 8
Photo 7: Connection of a Concrete Arch to its Pier




Source: SIGAR, June 11, 2009.

Note: The arch is held in place on the pier by a temporary weld, which is marked by the oval. The photo also
shows evidence of damage from the spring flooding with some reinforcement bars still bent over from the
flooding.

Documentation of the PRT quality assurance efforts was lacking. The available reports documented
some deficiencies in quality, but follow-up and corrective actions, if any, were not documented.
Although the PRT reported conducting frequent meetings and providing verbal feedback to the Joint
Venture in June 2009, the meetings were not documented in the files. The PRT staff recognized that the
documentation was deficient and indicated that the PRT had insufficient resources to document all of its
quality assurance activities. This lack of documentation could hamper efforts to effectively oversee
quality control and influence the work of the Joint Venture, especially following PRT rotations. Without
documentation of these quality control efforts, the PRT cannot ensure the structural integrity of the
bridge.

In December 2009, the Farah PRT stated that the contractor was required to test the concrete cylinders
only if directed by the Contracting Officers Representative. However, according to the PRT, during the
fabrication of the arches and piers the Joint Venture had been taking test cylinders and storing them
pending a request to have them tested. The PRT has now directed the Joint Venture to test the
cylinders. Although the design required the tests to be made approximately 28 days after placement,
the PRT’s planned procedure should be adequate for an engineer to confirm the structural integrity of
the concrete. The PRT is also exploring how to verify that welds will meet design criteria and, at the
request of the PRT, the Joint Venture began providing weekly engineer reports. If the PRT follows
through with these actions, the Joint Venture’s quality control procedures should be adequate to ensure
the structural safety of the completed bridge.




SIGAR Audit-10-7 Contract Performance and Oversight                                                  Page 9
Ownership of the Land Leading to the Bridge Was Not Addressed

During our site inspection, a man from Tojg Village told us that he owned the land on one end of the
bridge. Through an interpreter, he stated that he was very happy that the bridge was being constructed
and he would let the government use his land for free. The Farah PRT confirmed that the ownership of
the land under the bridge approaches had not been verified. The governor indicated that he could assist
the PRT to coordinate with the Ministry of Public Works and address land ownership issues. The land
rights to the bridge approaches will be critical to the use of the bridge. In December 2009, the Farah
PRT indicated that the Tojg Village area Shura leader is helping to develop the appropriate documents to
provide the land rights.

Contract Files Are Incomplete

The Farah PRT Project Purchasing Officer was not maintaining contract files as required by CERP
guidance. 6 Although the background information and progress reports cited in this report were in the
files, signed copies of some of the correspondence and other key documents were missing. In our
September 2009 report on CERP monitoring, we found that incomplete contract files were a problem. 7
In particular, incomplete files hampered adequate monitoring and management of CERP projects.

Incomplete documentation contributed to each of our concerns. The PRT was initially unable to provide
a signed copy of the first extension, and approval of the Joint Venture’s spring 2009 request for the
second extension was not formally documented. The PRT has not developed a comprehensive list of
gravel plant assets that will be turned over to GIRoA. Quality control and quality assurance documents
were incomplete, which led to uncertainties about the structural integrity of the bridge construction.
Although the USNCE Commander noted the incomplete documentation in his November 2008
memorandum, we found no indication that the Farah PRT had taken action to make the files more
complete before June 2009.

The files were also missing the proposals or bids and other competition documentation. This
documentation can be critical when negotiating modifications to the contract or ensuring that the
contractor has not substituted less expensive material. Due to vague contract specifications, the joint
venture was allowed to set some key contract requirements through communications subsequent to
contract award. With little signed documentation, the Project Purchasing Officers assigned to this
contract did not have the normal controls in place for avoiding or detecting fraud or for ensuring that
the government receives the products and services intended by the original contracting officer.




6
 The Standard Operating Procedures for CERP (version 2, page 11) issued April 17, 2006, requires the Project
Purchasing Officer to maintain CERP project documents for 5 years.
7
  See SIGAR, Increased Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program
in Afghanistan (SIGAR-09-5, Sept. 9, 2009). We recommended that U.S. Forces–Afghanistan develop and
implement a process to systematically collect and track information for CERP projects, implement a solution for
centralizing CERP records, and develop and implement a plan to address the management of large-scale projects of
$500,000 or higher.
SIGAR Audit-10-7 Contract Performance and Oversight                                                 Page 10
In June 2009, the Farah PRT’s Project Purchasing Officer stated that he had limited training in
procurement and had received no oversight of his procurement responsibilities. He asserted that this
was also true for his predecessors. In addition, the PRT has changed leadership and responsibility for
the Tojg Bridge construction contract three times since September 2007 when the contract was signed.
The lack of training and turnover of personnel likely contributed to the loss of documentation and
incomplete contract files.


SUSTAINABILTY REMAINS A CONCERN

According to International Security Assistance Force guidance, PRTs are to identify and implement
projects through the appropriate GIRoA ministries to build governance capability and enhance GIRoA
leadership and ownership of projects. PRTs are also to guide and mentor from “behind and
underneath,” ensuring Afghan leadership and ownership. 8

Although the PRT had facilitated a trip to the bridge site for the Farah governor, no GIRoA ministry
representative had been on site or involved in the design and construction of the bridge as of June 2009.
The bridge construction provided an opportunity to acquaint GIRoA officials with the design of the
bridge and necessary actions to procure similar improvements. By involving the appropriate ministry,
sustainment issues can be addressed early during the life of the project as required by the International
Security Assistance Force guidance. This is especially critical for the gravel plant equipment and related
facilities, which has created a new capability for the provincial economy.

In December 2009, the PRT Commander told us that officials from the Farah District Public Works
Department had been present on every PRT site visit to the Tojg Bridge since October. However, the
Commander also noted that the District Public Works Department was struggling to provide engineering
support to the Farah District due to a lack of funding, equipment, and personnel.


CONCLUSION

Although the Tojg Bridge is now projected to be completed by September 2010—nearly a year later than
originally planned—a number of contract-related issues remain to be addressed. Specifically, to protect
the U.S. investment, the PRT had not fully accounted for the gravel plant and associated equipment
worth at least $300,000. In addition, material testing still needs to be adequately documented and the
land rights to the bridge approaches must be addressed. Moreover, the Tojg Bridge contract files are
incomplete and, until recently, an appropriate GIRoA authority had not been involved in the bridge
construction or plans for the eventual turnover of the bridge and gravel plant. More attention to
contract administration and oversight by the Farah PRT would likely have avoided some of the issues we
found. In December 2009, the Farah PRT Commander reported a number of initiatives, which, if
followed through, should address these issues and will greatly increase the likelihood that the U.S.
investment will be adequately accounted for and that the Tojg Bridge will be safe and usable.


8
 Ensuring Afghan leadership and ownership are two of several guiding principles provided in the International
Security Assistance Force PRT Handbook, Edition 4.
SIGAR Audit-10-7 Contract Performance and Oversight                                                Page 11
RECOMMENDATIONS

To help ensure both effective accounting for U.S. resources and the safety and usability of the Tojg
Bridge when it is completed in September 2010, we recommend that the Commander, USFOR-A and
International Security Assistance Force direct the Farah PRT to take appropriate actions to implement
the following four recommendations:

1) Establish accountability for the gravel plant and associated equipment to ensure the sustainability of
   the plant.

2) Ensure that necessary quality control and quality assurance procedures are performed and
   adequately documented, including ensuring that:
      a. Testing of critical construction materials is completed,
      b. The structural concrete meets design requirements, and
      c. Weekly engineer reports that document quality control and corrective actions are prepared.

3) Ensure that the land rights associated with the bridge approaches are documented and transferred
   to the GIRoA.

4) Address the deficiencies in the contract files per applicable guidance.



COMMENTS

U.S. Forces-Afghanistan (USFOR-A) provided written comments on a draft of this report. The comments
are reproduced in appendix II. USFOR-A partially concurred with recommendations one, two, and four
and concurred with recommendation three. Nevertheless, based on the actions the Farah PRT has taken
or plans to take in response to our findings, we believe our recommendations are being addressed.

USFOR-A partially concurred with our recommendation to establish accountability for the gravel plant
and ensure a smooth transition to minimize disrupting the local economy. In the draft report, we also
suggested the gravel plant should be turned over to an appropriate Afghan ministry. In its comments,
USFOR-A disagreed with the USNCE Commander’s November 2008 determination that the gravel plant
was an implied part of the contract and should be turned over to GIRoA. USFOR-A’s current position is
that it can find no legal obligation for the Joint Venture to turn the plant and equipment over to GIRoA.
During our audit we found that funds were advanced by the Farah PRT for the Joint Venture to construct
the gravel plant and, throughout the course of our audit, the Farah PRT maintained that the plant would
be turned over to the appropriate ministry. Nonetheless, now that the Tojg Bridge is nearly complete
and within the contract’s original firm, fixed-price, we do not dispute USFOR-A’s current interpretation.
Moreover, USFOR-A stated in its comments that in February 2010, the Farah PRT met with the Afghan
Ministry of Public Works, the Afghan Minister of Economy, and the Joint Venture to discuss the gravel
plant. According to USFOR-A, the meeting participants “determined and agreed” that if no additional
funds were provided through the Tojg Bridge contract, that the Joint Venture had full rights to the gravel
plant’s land and equipment. This meeting effectively addressed the overall intent of our
recommendation that the Farah PRT work with GIRoA to account for the gravel plant and equipment.

SIGAR Audit-10-7 Contract Performance and Oversight                                          Page 12
However, given the prior uncertainty over the gravel plant’s ownership and its source of funding, we
strongly urge USFOR-A and the Farah PRT to fully document their current position for turning the plant
and equipment over to the Joint Venture and to include this documentation in the contract files.

USFOR-A partially concurred with our recommendation to ensure that the necessary quality control and
quality assurance measures are performed and adequately documented. USFOR-A noted the actions
the Farah PRT has taken or plans to take to address our recommendation. Most notably, the comments
state that in February 2010, the U.S. Army Corps of Engineers conducted an assessment of the Tojg
Bridge construction procedures and quality control. USFOR-A’s comments state that the assessment
verified that the Tojg Bridge quality control procedures have been adequate, which provides reasonable
assurance that structural concrete placed prior to initiation of testing in August 2009 meets design
requirements.

USFOR-A concurred with the recommendation to ensure that the land rights associated with the bridge
approaches are documented and transferred to the GIRoA. USFOR-A’s comments state that local land
owners have granted the rights in question.

USFOR-A partially concurred with our recommendation to address deficiencies in the contract files.
USFOR-A described actions the PRT has taken that substantially respond to our recommendation. As
noted in this report and confirmed by USFOR-A’s response, the most critical aspects of the incomplete
files we noted in June 2009 have been addressed. We did not intend that the current PRT recreate the
missing documents.




SIGAR Audit-10-7 Contract Performance and Oversight                                        Page 13
APPENDIX I: SCOPE AND METHODOLOGY


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review to determine the status of the Tojg Bridge construction contract and address
several outstanding contract issues.

To conduct this work, we reviewed documentation and conducted interviews with responsible officials
at Farah, Kandahar, and Bagram, Afghanistan. Specifically, we:

•   Conducted an on-site inspection of the Tojg Bridge on June 11, 2009. Personnel from the Farah PRT
    accompanied the SIGAR team.

•   Interviewed the Farah PRT Commander and other knowledgeable members of his staff, the
    governor of Farah Province, the Tojg Village area Shura leader, and the concrete superintendent of
    the Joint Venture constructing the bridge.

•   Reviewed CERP and procurement documentation available from the Commander, U.S. National
    Command Element (USNCE) Kandahar Airfield; the USNCE CERP Manager, Kandahar Airfield; and the
    Farah PRT contract and related files.

•   Interviewed the Commander, USNCE, Kandahar Airfield; three different USNCE CERP Managers; and
    personnel in the Regional Contracting Center-South at Kandahar Airfield.

•   Interviewed personnel in the office of the Principal Assistant Responsible for Contracting-
    Afghanistan at Bagram Airfield.

Finally, via e-mail in November 2009 through January 2010 with the current Commander of the Farah
PRT, we updated our information concerning the gravel plant and status of the bridge construction and
received some additional contract file documentation.

We conducted our work from May 2009 to January 2010 in Farah, Kandahar, and Bagram, Afghanistan in
accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusion based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusion based on our audit objectives. The performance audit
was conducted by SIGAR under the authority of Section 1229, Public Law No. 110-181, and the Inspector
General Act of 1978, as amended.




SIGAR Audit-10-7 Contract Performance and Oversight                                          Page 14
APPENDIX II: COMMENTS FROM U.S. FORCES-AFGHANISTAN




SIGAR Audit-10-7 Contract Performance and Oversight   Page 15
SIGAR Audit-10-7 Contract Performance and Oversight   Page 16
(This review was initiated under SIGAR Project Code 09-IN-004)


SIGAR Audit-10-7 Contract Performance and Oversight              Page 17
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
